              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                          APR 15 2011
Memorandum

To:       Vicki Forrest
          Chief Financial Officer - Indian Affairs

From:   ~~~ Kimberly Elmore ~ A0&~
          Assistant Inspector General for Audits, Inspections, and Evaluations

Subject: Office of Inspector General ' s Independent Report on the Bureau of Indian Affairs '
         Fiscal Year 2010 Accounting and Performance Summary Review Reports for the
         Office of National Drug Control Policy
         Report No. ER-IN-BIA-0004-2011

       The Office ofInspector General (OIG) reviewed the Bureau ofIndian Affairs' (BIA)
Accounting Report dated March 23 , 2011 , (Attachment 1) and its Performance Summary
Review Report dated February 9, 2011 , (Attachment 2) prepared for the Office of National Drug
Control Policy (ONDCP). BIA management is responsible for these reports.

        The reports are presented in place of the Detailed Accounting Submission and
Performance Summary Report required by the ONDCP Circular: Drug Control Accounting dated
May 1, 2007. The Circular allows this alternative reporting method when prior year drug control
obligations are less than $50 million and full compliance with the Circular constitutes an
unreasonable burden. BIA management asserted that full compliance would be an unreasonable
burden and that the obligations reported constitute the statutorily required detailed accounting.

         We reviewed management' s assertion in accordance with the generally accepted
government auditing standards applicable to attestations that incorporate the attestation standards
established by the American Institute of Certified Public Accountants. A review is substantially
less in scope than an examination, which expresses an opinion on management's assertions.
Accordingly, we do not express such an opinion.

        We limited our review to management's assertion that full compliance with the
requirements of the Circular constituted an unreasonable burden. Our review procedures were
limited to inquiries and analytical procedures appropriate for a review engagement. Our
objective was not to express, and we do not express, opinions or conclusions on whether the
reports were fairly stated.

       Based on our review, BIA management' s assertion conforms to the requirements of the
Circular.




                        Office of Audits. Inspections. and Evaluations I Washington. DC
        Should you have any comments or questions regarding this report, please do not hesitate
to contact me at 202-208-5512.

        This report is intended solely for the information and use of the management of BIA,
ONDCP, and the U.S. Congress, and is not intended to be and should not be used by anyone
other than these specified parties. The distribution of our report, however, is not limited.

Attachments (2)




                                               2
                                                                                   Attachment 1
                  United States Department of the Interior
                                OFFICE OF THE SECRETARY
                                   Washington, DC 20240
                                         MAR 23 2011



Memorandum


To:            Kimberly Elmore
               Assistant Inspector General for Audits, Inspections and Evaluations

From:          Deputy Assistant Secretary - Management

Subject:
Subject:       Office of
                      ofInspector  General's
                         Inspector General ' s Independent Rep on the Office of National Drug
               Control Policy (ONDCP) 2010 Accounting Report - Indian Affairs

Attached for your review and response is the ONDCP 2010 Accounting Report for Indian
Affairs. As required by the ONDCP Circular:
                                  Circular: Drug Control Accounting dated May 1, 2007, the
report show that Indian Affairs prior-year drug control obligations are less than $50 million and
is in full compliance with the requirements of the Circular and constitutes an unreasonable
burden.


If you have any questions, please contact the Office of Justice Services, David Johnson - Acting
Deputy Associate Director, Drug Enforcement at 405-247-1665 or 202-208-5787.
                                                               202-208-5787.



Attachment
               ONDCP 2010 Accounting Report - Indian Affairs

Resource Summary

 Prior Year Drug Control Obligations                                           FY 2010
 Function: Prevention
 J33         Special Initiatives                                               10,000,000
             Substance Abuse - Meth Initiative                                 10,000,000
             Total ALL Functions                                               10,000,000
             Total FTE (Direct ONLY)                                               35


Full compliance with this Circular constitutes an unreasonable reporting burden. Obligations
reported under this section constitute the statutorily required detailed accounting.
                                                                                         Attachment 2

                          United States Department of the Interior
                                                OF IN DI AN
                                        BU REAU OF       AN AFFA IRS
                                                                 IR S
                                               Washington, D.C. 20240


IN REPL
   REI'L Y REFER TO'



                                               February 22, 2011

  Memorandum


  To :                 Kimberly Elmore
                       Assistant Inspector General for Audits, Inspections and Evaluations

  From:                David Johnson
                       Acting Chief - Division of Drug Enforcement, BIAI

  Subject:             2010 ONDCP Performance Summary Review


                                                 Review. I apologize for the delay in the
  Attached is the 2010 ONDCP Performance Summary Review.
  report submission.

  With past discrepancies in OJS reporting it was my intent to focus on providing an accurate
  report. When compiling the drug seizure amount totals those numbers were re-calculated several
  times to ensure proper calculation. Hopefully, OJS has developed a report which adequately
  addresses any questions you may have.
                                    have.

  I have met with DOI-OLES reviewed their drug statistic reporting data base to determine if it
  would be something BIA-OJS can utilize to enhance reporting.

  If you have questions please contact me at 202-273-3585 .
             2010
ONDep Performance Summary Review
 United States Department of the Interior
 Bureau of Indian Affairs - Office of Justice Services



                   ONDCP Performance Summary Review

 ONDCP Budget                                               FY 2008             FY 2009              FY 2010
 Function: Prevention
 J33       Special Initiatives                             6,338,000           6,338,000            10,000,000
              Substance Abuse - Meth
              Initiative                                   6,338,000           6,338,000            10,000,000
 Function: Education
 J34       Indian Police Academy                            505,050             505,050              505,050
              TOTAL ALL Functions                          6,843,050           6,843,050            10,505,050
 Drug Resource Summary of Personnel

                   Total FTE (Direct Only)                      18                 33                    35
*38 Includes Administrative Staff

Performance Introduction

In 2010, the Bureau of Indian Affairs (BIA) continued to see an increase in drug activity on lands
under its jurisdiction. As reflected in the number of drug cases worked and the level of drug
seizures; including methamphetamine (ICE), crack cocaine and illegally diverted prescription
drugs. In response, BIA has increased the number of trained officers and other service personnel
to assist in investigations, arrests and drug seizures. This report includes performance measures,
targets, and achievements for the latest year for which data is available. Data was gathered and
verified from the Office of Justice Services (OJS) data base and the Division of Drug
Enforcement (DDE) case log.

Performance Measure One: Number of Patrol Officers Receiving Drug Training

In 2009, BIA proposed training an additional 200 officers. The BIA documented the training of
240 officers in 2009, exceeding the target goal of 200 by 20%. The training conducted in 2010
resulted in a substantial increase of trained officers and other service oriented staff to support
drug investigations. A total of 358 individuals were trained in 2010 a 49% increase over the
previous year. Bubar & Hall Consulting was contracted by BIA-DDE to provide drug related
outreach training to tribal and BIA law enforcement officers and other service oriented staff to
support drug agents in investigations and arrests. Training provided in 2010 consisted of
"Responding to Methamphetamine Endangered Children in Tribal Communities. " Training was
held at six locations; Albuquerque, NM, Phoenix, AZ, Billings, MT, Seattle, WA, Bismarck,
ND, and Tulsa, OK.

        2009 Pro osed                          2009 Achieved                            2010 Achieved
             200                                    240                                      358
*The preceding information was obtainedjrom contract files at Central Office, copy ojthe training rosters are
attached.
The DDE continues to experience challenges gathering accurate data using systems developed by
the BIA IT division or its contractors. Information gathered for this report and the subsequent
verification process again highlighted the need for an automated data collection system. OJS-DDE
recently learned of the DOl drug data collection system and began reviewing the system to
determine if it would meet OJS-DDE needs. The initial review found the system would need
modifications to fully support the collection of drug related data submitted for all tribes.

Drug Enforcement Agents are responsible for managing drug investigations and implementing the
interdiction programs necessary to reduce the effects of drugs and drug-related crime in Indian
country. In October 2007, there were only five (5) BIA drug agents investigating issues related to
drug activity throughout Indian country. Recent funding increases have allowed BIA to expand the
Drug Unit to 30 agents who are strategically placed within or near other task force units in order to
combat the illegal drug epidemic in Indian country. Arrests documented in 2010 increased by 20%
over the 2009 figures.

Percent increase in number of drug related arrests

   2008 Baseline             2009 10%             2009 Achieved          2010 10%            2010 Achieved
                              Proposed                                    Proposed
          443                    487                    559                  615                    671
*The preceding information was obtainedfrom the Lotus Notes drug database. A copy of the database information is
attached.

Performance Measure Two: Percent increase in drug cases worked

The number of drug cases reported is tracked by gleaning data from monthly statistical reports
provided by BIA-DDE, BIA and Tribal Police programs and entering the data into the OJS drug
database system.

The following information documents the cases worked by all Indian country law enforcement
programs (BIA-DDE, BIA and Tribal). These figures demonstrate an overall increase of
approximately 10% in drug cases worked in Indian country in FY 2010.

   2008 Baseline             2009 40%             2009 Achieved          2010 (+ 2%)         2010 Achieved
                              Proposed                                    Proposed
          606                    667                    656                  669                    722


The following information documents the cases worked as reported by the BIA-DDE. These
figures demonstrate an overall increase of approximately 57.6% in cases worked in FY 2010.

   2008 Baseline             2009 40%             2009 Achieved          2010 (+3%)          2010 Achieved
                              Proposed                                    Proposed
          90                     126                    267                  272                    421
The following infonnation documents the cases worked as reported by BIA and Tribal police
departments. These figures demonstrate an overall decrease of approximately 24.2% in cases
worked in FY 2010.

 2008 Baseline              2009 40%            2009 Achieved              2010 (+2%)         2010 Achieved
                             Proposed                                       Proposed
         516                    567                      389                   397                295
*The preceding information was obtainedfrom the Lotus Notes drug database and DDE case logs. A copy of the
database information is attached.

Performance Measure Three: Increase in the amount of drugs seized

FY 2010 has shown a dramatic increase in the use of the Drug Database in the Lotus Notes data
collection system. Individuals from both the BIA DDE and Law Enforcement Operations have
been instructed in the use of the system and necessity of this data in perfonnance reporting and for
use in managing their programs in the fight on drugs. Both programs are now entering data into the
system to provide a more accurate accounting of drug seizures and cases worked in Indian country.

The 2008 actual baselines are established based on the monthly statistical reports entered into the
01S drug database system by the District Law Enforcement Operations and the BIA DDE at the
Central Office.

The following infonnation documents drug seizures accomplished by the combined efforts of BIA-
DDE, BIA and Tribal Police programs. These figures demonstrate an overall decrease of
approximately 84.6% in drugs seized by Indian Country Law Enforcement Programs in FY 2010.

  2010 All Submissions
    Increase in Amount of             2008        2009            2009           2010 (+2%)          2010
         Drugs Seized                Baseline   Proposed        Achieved          Proposed         Achieved
 l()()l) £lchie"ed (//1(/ ]0 I ()
 (u/Lt!.\ reprl!st!nled in pounds:    13,859    16,604g        287, 099.00 lb   292,840.98Ib      44,759.67Ib
 Cocaine Powder                        1,114     1,225 g            178.621b        182.191b        106.531b
 Cocaine Crack                           630       693 g              0.661b          0.671b          8.281b
 Heroin                                  523       575 g              0.481b          0.481b          0.081b
 MDMA (Ecstasy)                            4         4g               0.031b          0.031b          0.151b
 Meth Crystal                            473       520 g             13.75Ib         14.021b         40.871b
 Meth Powder                              86        95 g              4.551b          4.641b          0.731b
 Processed Marijuana                   5,466     6,013 g             85.491b         87.191b         4,1591b
 Prescription Drugs Seized               683       751 g             13.101b         13.361b         52.15 lb
 Other drugs seized                      344       378 g              0.501b          0.511b           1.88 lb
 Marijuana (# Plants = Ibs)               10      12,000             286,802         292,538          40,390

The total number of marijuana plants seized in 2010 is recorded as 40,390. Research conducted by
various private Universities, Law Enforcement Training Programs and Law Enforcement
Operations have established the average usable amount of product derived from a mature marijuana
plant to be approximately one pound. Total marijuana seized (processed and eradicated) in Indian
country in FY 2010 is 44,540 pounds.
The following information demonstrates drug seizures accomplished by the BIA-DDE. These
numbers were derived from the DDE case investigations logs and statistical reports and subtracted
from the previous charts depicting the overall Indian country seizures. These figures demonstrate
an overall decrease of approximately 70.8% in drugs seized by the BIA-DDE.


   2010 BIA-DDE Only
  Increase in Amount of                 2008        2009         2009          2010 (+2%)           2010
       Drugs Seized                    Baseline   Proposed     Achieved         Proposed          Achieved
 :!00911L'iJiI! 1'ed lind 20! ()
 lolU!s repre,\'/lnled in {Jollnds :      3,179     3,651 g   149,713.47Ib    152, 707. 73 lb    43,762.88 Ib
 Cocaine Powder                             495       546 g       178.621b         182.191b         105.851b
 Cocaine Crack                              188       207 g         0.381b           0.381b           8.13 lb
 Heroin                                     261       287 g         0.381b           0.381b           0.081b
 MDMA (Ecstasy)                               0           0              0                  0         0.121b
 Meth Crystal                                 0           0              0                  0        40.601b
 Meth Powder                                232       255 g        18.341b          18.701b           O.72lb
 Processed Marijuana                        643       707 g        45.271b          46.171b       3,384.30Ib
 Prescription Drugs Seized                 .004           0         0.040z           0.040z           0.081b
 Other drugs seized                           0           0         0.641b           0.651b                 0
 Marijuana (# Plants = Ibs)                   3      12,000        149,467          152,456           40,223

Review of the preceding information indicates the decline in total seizures is due to a reduced
number of marijuana plants seized by all Indian country programs. Overall, there were 109,067
fewer marijuana plants seized during FY 2010,

BIA-DDE management reports the number of marijuana eradication operations conducted in FY
2010 was comparable to the number of FY 2009 operations conducted, but the number of
cultivation sites and plants discovered in Indian country was greatly reduced. The 2010 figures
indicate afocus on investigative activity (undercoverlbuy operations) resulting in an increase in
amount of Crack Cocaine, Methamphetamine and processed marijuana seized. These types of
investigations tend to take more time (multiple buys for prosecution) and the quantity of drugs
seized is less, but this type of activity result in the prosecution of drug dealers. Having agents in
the communities making drug buys, and seeking prosecution of suppliers has an immediate
affect and is very important to community members and tribal leaders.

*The preceding information was obtainedfrom the Lotus Notes drug database and DDE case logs, A copy of the
database information is attached. A copy of a DDE case log summary is attached.


Program

The BIA Office of Justice Services has been provided additional base funding for the development
of a Victim Witness Program, consisting of 10 Victim Witness Specialist positions to be filled
throughout Indian country. The Victim/Witness Specialists will sponsor victims and witnesses of
issues related to drugs and violent crimes. Until recently crime victims did not have a BIA victim's
advocate. Working with the Department of Justice-Office of Victims of Crime (OVC), has resulted
in DOJ-OVC funding four victim/witness specialist positions for the BIA.
The OJS Intelligence Analyst is assigned to the southwest border intelligence workgroup located at
the El Paso Intelligence Center (EPIC). OJS-DDE plans to recruit 6 additional intelligence analyst
positions to be stationed throughout the country to work within task force environments. Through
these placements the BIA will be able to assist in providing a solid intelligence network for tribal,
Federal, state and local law enforcement to work collaboratively on information-sharing related to
illegal drug activities, gang activity and other violations of law within Indian country.

The BIA Tribal Equipment Loan program was established to provide access to state of the art drug
surveillance equipment for tribal law enforcement programs with specific drug problems. Currently
in 2010, there are 9 tribes participating in the equipment loan program. Each of these tribes is
operating under a Pub. L 93-638 contract or Self-Governance compact and has indicated a need for
the equipment because of high rates of illegal drug use and crime within their communities.

With 100+ schools servicing Indian Country, the School Resource Officer (SRO) program has
become an important part of the OJS drug initiative. The DOE funds 18 SRO positions throughout
Indian Country. The program allows interaction of officers and students in the student's
environment. SRO's provide instruction in drug awareness and gang resistance using nationally
recognized and adopted curriculum. A SRO position serves as the initial contact with students and
educates them on the negative aspects of illegal drug use and gang activity. These positions playa
key role in providing visual deterrent and identifying potential threats of school violence. Since
initiating the SRO program it has received significant attention, and school administrators have
seen the positive effects of having a uniform police officer on school campuses. Those
administrators are now asking for additional SRO's to support additional schools in the BIE system.
A future goal of the SRO program is to develop a mentoring component using the SRO platform
allowing the SRO to be available to focus on individual children with issues that place them in high
risk situations.



MANAGEMENT ASSERTIONS

1. Performance reporting systems are appropriate and applied -
   The DDE continues to experience challenges gathering accurate data using systems developed
   by the BIA IT division or its contractors. Information gathered for this report and the
   subsequent verification process again highlighted the need for an automated data collection
   system. OJS-DOE recently learned of the DOl drug data collection system and has reviewed the
   system to determine if it meets OJS-DDE needs. The initial review found the system would
   need modifications to fully support the collection of drug related data submitted for all tribes.

2. Explanations for not meeting performance targets are reasonable -
   The decrease in total amount of drugs seized is due to the lack of marijuana plants seized. BIA
   (Direct Service) and Tribal Law Enforcement programs not opening independent drug
   investigations. 2010 figures indicate DOE increased focus on investigative activity targeting
   individuals selling illegal drugs showing substantial increases in the seizure of Cocaine (crack),
   Methamphetamine, and processed marijuana.
3. Methodology to establish performance targets is reasonable and applied -
   Due to the substantial increase in agents, targets were projected for FY 2010 based upon what
   the program thought the increase of 25 agents would be able to provide. Now that the program
   has 2 years of statistical data, projecting targets for the two measures on cases and seizures will
   be more realistic.

4. Adequate performance measures exist for all significant drug control activities-
   The agency has 3 acceptable performance measures that adequately cover each of the decision
   units. Each measure considers the intended purpose of the NDCP activity.




                           ndiailAffairs
                                                                             oi? Ilf   Date
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            703-487-5435

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
